                Department of Veterans Affairs
                Office of Inspector General



                  Office of Healthcare Inspections

Report No. 13-01241-250



                Healthcare Inspection

         Provider Availability 

    VA Roseburg Healthcare System 

          Roseburg, Oregon 





July 18, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                                  Provider Availability, VA Roseburg Healthcare System, Roseburg, OR



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to complaints about the quality of inpatient care at the VA
Roseburg Healthcare System, Roseburg, OR. The complainant alleged that on-call
hospitalists live too far away from the facility to provide onsite care between the hours
of 7:00 p.m. and 7:00 a.m. and therefore only provide orders that temporized care until
the hospitalist arrived at 7:00 a.m. The complainant alleged that the inpatient nursing
staff was unable to secure medical intervention and that patients failed to receive
prompt care from 7:00 p.m. until 7:00 a.m. unless they were to deteriorate to the point of
requiring a full medical code.

We did not substantiate the allegation that hospitalists on-call lived too far away to
provide onsite care overnight. We found that hospitalists are available from 7:00 a.m.
to 7:00 p.m. after which the system utilizes a tiered system of medical coverage that
includes onsite care. Hospitalists do not work the evening or night shift nor do they
work in an on-call capacity.

We did not substantiate the allegation that inpatient nursing staff was unable to secure
medical intervention between the hours of 7:00 p.m. and 7:00 a.m. We found that
nursing staff had a number of options to ensure care for the veterans. A second on-call
(SOC) process is in place for routine, non-emergent issues that arise. For patients with
more immediate care needs, the nurses have access to the emergency department
staffed by the medical officer of the day, the rapid-response team, and the code system.

We identified issues in hand-off communication from the hospitalist to the SOC. We
also determined that incomplete admission orders resulted in night-shift nurses needing
to call the SOC. We found that facility leadership was aware of these problems and
was committed to addressing them.

We made no recommendations.

The Veterans Integrated Service Network and Facility Director concurred with the
report.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                     i
                                   Provider Availability, VA Roseburg Healthcare System, Roseburg, OR


                                           Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations that hospitalists on-call between the
hours of 7:00 p.m. and 7:00 a.m. live too far from the inpatient facility to provide onsite
care and therefore only provide temporizing orders over the phone until the hospitalist
arrives at 7:00 a.m., that inpatient nursing staff is unable to secure needed medical
intervention, and that veterans failed to receive prompt care from 7:00 p.m. until 7:00
a.m. unless the veteran deteriorated to the point of requiring a full medical code.

                                         Background 

VA Roseburg Healthcare System (system) is part of Veterans Integrated Service
Network (VISN) 20. The system provides care for veterans residing in central and
southern Oregon and northern California. The main campus includes an emergency
department, community living center, and provides primary care and hospital services in
medicine, surgery, and mental health. The system has four CBOC’s in the state of
Oregon including two located in Eugene, one in Brookings and one in North Bend.

The system is a designated Veteran Rural Access Hospital with no Intensive Care Unit
and a low volume emergency department. A waiver was granted in calendar year 2012
to allow the emergency department physician to cover acute cardiopulmonary and
respiratory emergencies on the inpatient units when the hospitalist is not on duty. This
process is a change from prior practice when the system utilized 24-hour daily
hospitalist coverage for inpatient medical care.

                                 Scope and Methodology

We conducted a site visit March 26–27, 2013.

We interviewed the system’s Associate Director, Chief of Staff, Chief of Medicine,
Deputy Nurse Executive, and Accreditation Coordinator, and we interviewed inpatient
staff from the night shift. We reviewed relevant facility policies and procedures,
utilization data, on-call schedules, and incident reports. We toured the environment of
care relevant to the complaint.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                     1
                                 Provider Availability, VA Roseburg Healthcare System, Roseburg, OR



                                 Inspection Results 

Issue 1: Provider Proximity to Main Facility

We did not substantiate the allegation that hospitalists on-call lived too far away to
provide onsite inpatient care overnight. Hospitalists are scheduled and available onsite
7:00 a.m. to 7:00 p.m. seven days a week. Beginning at 7:00 p.m. each day, the
Medical Officer of the Day (MOD) provides bedside response to inpatient medical
emergencies and is available to provide less urgent inpatient assessments in the
emergency department. In addition to the MOD, a 24-hour call schedule comprised of
main facility and CBOC providers is in place to cover inpatient care and come to the
system should the need arrive. The providers on this schedule are referred to as the
second on-call (SOC) and serve as back-up to the hospitalists and the MOD. The role
of the SOC is to provide routine, non-urgent medical orders or consultations for
inpatients. We confirmed that providers from the Eugene CBOC were on the SOC
rotation, as are providers from the system’s other 3 CBOCs. These providers live more
than an hour away from the main inpatient facility. However, the system indicated that
these providers were not expected to provide onsite immediate care. If a nurse
determines that an inpatient bedside medical assessment is warranted on the night
shift, the nurse is supposed to call the Administrative Officer of the Day (AOD). The
AOD contacts the SOC, and if the SOC is not available for onsite care, the AOD
contacts specified physicians who live in close proximity to the inpatient facility.

We were not provided examples of patient specific cases supporting the allegation of
telephone orders being provided to forestall or temporize care. Nursing staff reported
instances of delays in orders such as pain medications and diet menus; however, these
were not attributed to the lack of physician proximity to the facility. Rather, these were
related to incomplete admission orders and the responsiveness of the SOC.

Staff identified two instances in the prior twelve months when a provider was needed
onsite for non-emergency care during the 7:00 p.m. to 7:00 a.m. timeframe. In both of
these instances, the patient was on a medical ward and was in behavioral restraints that
required a provider to reassess the patient and write new orders every four hours. The
AOD was able to reach a provider to perform these duties.

Issue 2: Access to Care and Alleged Lack of Available Medical Care

We did not substantiate the allegation that nursing staff were unable to secure medical
intervention between the hours of 7:00 p.m. and 7:00 a.m. We found that inpatient
nursing staff had a number of options to ensure care for the veterans in this situation.
The SOC process is in place for routine, non-emergent issues that arise. For patients
with more immediate care needs the nurses have the emergency department, MOD,
rapid-response team, and code system available. We discussed these options with the
night staff and they confirmed the success with which these options worked.




VA Office of Inspector General                                                                   2
                                 Provider Availability, VA Roseburg Healthcare System, Roseburg, OR


Other Findings:

We found that the system triages patients and admits only those with an acuity level
consistent with available services. The system has community partnerships in place to
provide treatment to patients requiring higher-level care.

We identified issues in hand-off communication from the daytime hospitalist to the SOC
that impacted the efficiency with which the SOC addressed inpatient needs when
contacted by nursing. We also found that incomplete daytime admission orders often
resulted in night-shift nurses needing to call the SOC to secure additional orders. We
found that facility leadership was aware of these problems and was committed to
addressing them.

                                       Conclusions

We did not substantiate the allegations.

In summary, we found that the system admitted only those patients with an acuity level
appropriate to that for which they were staffed and had the infrastructure/technology to
handle and that the system had processes in place to manage the care of inpatients on
all shifts.

We made no recommendations.




VA Office of Inspector General                                                                   3
                                   Provider Availability, VA Roseburg Healthcare System, Roseburg, OR
                                                                                         Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:	      June 21, 2013

   From:	      Director, VA Northwest Health Network (10N20)

   Subject: Healthcare Inspection – Provider Availability, VA Roseburg
            Healthcare System, Roseburg, OR

   To:	        Department of Veterans Affairs, Office of the Inspector
               General



               As the Director of VISN 20 I concur with the response from
               Roseburg that they agree with the report in its entirety with no
               changes.




               (original signed by:)

               Lawrence H. Carroll




VA Office of Inspector General                                                                     4
                                   Provider Availability, VA Roseburg Healthcare System, Roseburg, OR
                                                                                         Appendix B
                         System Director Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:       June 11, 2013

   From:       Director, VA Roseburg Healthcare System

   Subject: Healthcare Inspection – Provider Availability, VA Roseburg
            Healthcare System, Roseburg, OR

   To:	        Department of Veterans Affairs, Office of the Inspector
               General

               Director, VA Northwest Health Network (10N20)



               VA Roseburg Healthcare System concurs with this report in its
               entirety.




               (original signed by:)

               Carol S. Bogedain, FACHE




VA Office of Inspector General                                                                     5
                                 Provider Availability, VA Roseburg Healthcare System, Roseburg, OR
                                                                                       Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Susan Tostenrude, MS, Team Leader
                         Karen A. Moore, RNC, MSHA
                         Noel Rees, MPA
                         Marc Lainhart, BS, Management and Program Support Assistant




VA Office of Inspector General                                                                   6
                                 Provider Availability, VA Roseburg Healthcare System, Roseburg, OR
                                                                                       Appendix D

                                 Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Northwest Health Network (10N20)
Director, VA Roseburg Healthcare System (653/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Merkley, Ron Wyden
U.S. House of Representatives: Peter A. DeFazio



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                   7
